Press Releases, Bloomfield Hills, MI., March 06, 2012 - Former Pontiac Schools Assistant Superintendent Indicted for Taking District Funds and Money Laundering
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFFICE
EASTERN DISTRICT OF MICHiGAN
NEWS
Former Pontiac Schools Assistant Superintendent Indicted
for Taking District   Funds and Money Laundering
FOR IMMEDIATE RELEASE
March 06, 2012
Former Pontiac Schools Assistant Superintendent Jumanne Sledge, 40, of   Bloomfield Hills, Michigan, was charged in an Indictment today, with taking   $236,000.00 in district funds and with money laundering, United States Attorney   Barbara L. McQuade announced today.
Joining McQuade in the announcement was FBI Special Agent in Charge Andrew G.   Arena.
The Indictment charges that in 2010, Sledge committed program fraud upon the   district, which annually receives more than $10,000.00 in federal funding, by   directing a district employee to write Sledge a vendor check in the amount of   $236,000, payable to “Leadership Academy,” which Sledge deposited into an   account which he controlled. Approximately two months later, Sledge opened   another account, where he deposited $200,000.00 of the funds, which he then used   to pay personal expenses.
If convicted, Sledge faces a maximum of ten years in prison and a fine of up   to $250,000.00 on the program fraud count and up to twenty years and a fine of   up to $250,000.00 on the money laundering count. The Indictment also seeks   forfeiture of more than $236,000.00.
"Corruption in any form is a serious   crime, but when a defendant steals from a school district, he robs children of   funds intended for their education and their future," McQuade said.
FBI Special Agent in Charge Andrew Arena said, "This type of public   corruption not only violates the trust of the community but also robs children   of opportunity. The FBI is committed to stopping those who steal from our   youth."
The case was investigated by agents of the FBI, and is being   prosecuted by Assistant United States Attorney J. Michael Buckley.
An indictment is only a charge and is not evidence of guilt. It will be the   government's burden to prove guilt beyond a reasonable doubt.
Top
Printable view
Last Modified: 03/12/2012
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov